 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF
  SWEDISH MEDICAL CENTER –
          FIRST HILL


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Lori A. Ahlstrand
                                                Regional Inspector General
                                                    for Audit Services

                                                         June 2014
                                                       A-09-13-02048
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Swedish Medical Center – First Hill did not fully comply with Medicare requirements
 for billing inpatient and outpatient services, resulting in net overpayments of
 approximately $937,000 over more than 3 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represented 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

Our objective was to determine whether Swedish Medical Center – First Hill (Swedish)
complied with Medicare requirements for billing inpatient and outpatient services on selected
claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

Swedish is an acute-care hospital located in Seattle, Washington. Medicare paid Swedish
approximately $389 million for 30,180 inpatient and 143,467 outpatient claims for services
provided to beneficiaries during CYs 2010 through 2012.

Our audit covered $2,340,888 in Medicare payments to Swedish for 257 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of
152 inpatient and 105 outpatient claims. Of the 257 claims, 247 claims had dates of service in
CYs 2010, 2011, or 2012, and 10 claims (involving inpatient short stays and outpatient claims
for injectable drugs) had dates of service in CY 2009.

WHAT WE FOUND

Swedish complied with Medicare billing requirements for 81 of the 257 inpatient and outpatient
claims we reviewed. However, Swedish did not fully comply with Medicare billing
requirements for the remaining 176 claims, resulting in net overpayments of $937,499 for
CYs 2010 through 2012 (166 claims) and CY 2009 (10 claims). Specifically, 81 inpatient claims
had billing errors, resulting in overpayments of $763,685, and 95 outpatient claims had billing


Medicare Compliance Review of Swedish Medical Center – First Hill (A-09-13-02048)                  i
errors, resulting in net overpayments of $173,814. These errors occurred primarily because
Swedish did not have adequate controls to prevent the incorrect billing of Medicare claims
within the selected risk areas that contained errors.

WHAT WE RECOMMEND

We recommend that Swedish:

    •   refund to the Medicare contractor $937,499, consisting of $763,685 in overpayments for
        the incorrectly billed inpatient claims and $173,814 in net overpayments for the
        incorrectly billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS AND OUR RESPONSE

In written comments on our draft report, Swedish stated that although it generally agreed with
our findings and recommendations related to instances in which documentation was insufficient
or coding errors occurred inadvertently, it disagreed with some of the narrative used in our
report. Regarding our first recommendation, for the inpatient claims that we found should have
been billed as outpatient or outpatient with observation services, Swedish stated that it planned to
rebill Medicare Part B as soon as it is permitted to do so. Swedish also stated that, as a result, it
believes our draft report significantly overstated the overpayment amount associated with these
claims. Regarding our second recommendation, Swedish described corrective actions that it had
undertaken to address the recommendation.

We acknowledge that Swedish may rebill Medicare for the incorrectly billed inpatient claims;
however, the rebilling issue is beyond the scope of our review. CMS issued the final regulations
on payment policies (78 Fed. Reg. 160 (Aug. 19, 2013)). Swedish should contact its Medicare
contractor for rebilling instructions.




Medicare Compliance Review of Swedish Medical Center – First Hill (A-09-13-02048)                  ii
                                                     TABLE OF CONTENTS

INTRODUCTION .............................................................................................................................1

           Why We Did This Review .....................................................................................................1

           Objective ................................................................................................................................1

           Background ............................................................................................................................1
                 The Medicare Program ..............................................................................................1
                 Hospital Inpatient Prospective Payment System .......................................................1
                 Hospital Outpatient Prospective Payment System .....................................................1
                 Hospital Claims at Risk for Incorrect Billing ............................................................2
                 Medicare Requirements for Hospital Claims and Payments .....................................2
                 Swedish Medical Center – First Hill ..........................................................................3

           How We Conducted This Review..........................................................................................3

FINDINGS .........................................................................................................................................3

           Billing Errors Associated With Inpatient Claims ..................................................................3
                   Incorrect Billing of Medicare Part A for Beneficiary Stays That Should Have
                     Been Billed as Outpatient or Outpatient With Observation Services .....................4
                   Incorrect Diagnosis-Related Groups ..........................................................................4

           Billing Errors Associated With Outpatient Claims................................................................4
                   Incorrect Billing of Healthcare Common Procedure Coding System Codes .............4
                   Incorrect Billing of Number of Units.........................................................................5

RECOMMENDATIONS ...................................................................................................................5

HOSPITAL COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE ..................5

           Hospital Comments................................................................................................................5

           Office of Inspector General Response ...................................................................................6

APPENDIXES

           A: Audit Scope and Methodology ........................................................................................7
           B: Results of Review by Risk Area ......................................................................................9
           C: Hospital Comments ........................................................................................................ 10




Medicare Compliance Review of Swedish Medical Center – First Hill (A-09-13-02048)                                                                iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represented 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Swedish Medical Center – First Hill (Swedish)
complied with Medicare requirements for billing inpatient and outpatient services on selected
claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system. The rates vary according to the diagnosis-related group (DRG) to
which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services




Medicare Compliance Review of Swedish Medical Center – First Hill (A-09-13-02048)                  1
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of hospital claims at risk for
noncompliance:

    •    inpatient short stays,

    •    inpatient mechanical ventilation,

    •    inpatient claims paid in excess of charges,

    •    outpatient claims for injectable drugs, and

    •    outpatient claims billed with modifier -59 (indicating that a procedure or service was
         distinct from other services performed on the same day).

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, payments may
not be made to any provider of services or other person without information necessary to
determine the amount due the provider (the Act, § 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for
most outpatient services (chapter 23, § 20.3).




1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of Swedish Medical Center – First Hill (A-09-13-02048)                                   2
Swedish Medical Center – First Hill

Swedish is an acute-care hospital located in Seattle, Washington. Medicare paid Swedish
approximately $389 million for 30,180 inpatient and 143,467 outpatient claims for services
provided to beneficiaries during CYs 2010 through 2012. 2

HOW WE CONDUCTED THIS REVIEW

Our audit covered $2,340,888 in Medicare payments to Swedish for 257 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of
152 inpatient and 105 outpatient claims. Of the 257 claims, 247 claims had dates of service in
CYs 2010, 2011, or 2012, and 10 claims (in areas with a higher risk of billing errors, i.e.,
inpatient short stays and outpatient claims for injectable drugs) had dates of service in CY 2009.
We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements but did not use
medical review to determine whether the services were medically necessary. This report focuses
on selected risk areas and does not represent an overall assessment of all claims submitted by
Swedish for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

For the details of our audit scope and methodology, see Appendix A.

                                                  FINDINGS

Swedish complied with Medicare billing requirements for 81 of the 257 inpatient and outpatient
claims we reviewed. However, Swedish did not fully comply with Medicare billing
requirements for the remaining 176 claims, resulting in net overpayments of $937,499 for
CYs 2010 through 2012 (166 claims) and CY 2009 (10 claims). Specifically, 81 inpatient claims
had billing errors, resulting in overpayments of $763,685, and 95 outpatient claims had billing
errors, resulting in net overpayments of $173,814. These errors occurred primarily because
Swedish did not have adequate controls to prevent the incorrect billing of Medicare claims
within the selected risk areas that contained errors. For the results of our review by risk area, see
Appendix B.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

Swedish incorrectly billed Medicare for 81 of 152 selected inpatient claims, which resulted in
overpayments of $763,685.



2
    These data came from CMS’s National Claims History file.


Medicare Compliance Review of Swedish Medical Center – First Hill (A-09-13-02048)                   3
Incorrect Billing of Medicare Part A for Beneficiary Stays That Should Have Been Billed
as Outpatient or Outpatient With Observation Services

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)).

For 71 of 152 selected claims, Swedish incorrectly billed Medicare Part A for beneficiary stays
that it should have billed as outpatient or outpatient with observation services. (Of the 71 claims,
67 claims had dates of service in CYs 2010, 2011, or 2012, and 4 claims had dates of service in
CY 2009.) Swedish attributed the patient admission errors primarily to hospital staff not
verifying that an inpatient level of care was needed. As a result of these errors, Swedish received
overpayments of $646,789. 3

Incorrect Diagnosis-Related Groups

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)). The Manual states: “In order to be processed
correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).

For 10 of 152 selected claims, Swedish billed Medicare with the incorrect DRGs. For example,
for three claims, Swedish billed a DRG for use of a mechanical ventilator for 96 hours or more
rather than billing the DRG for use of a mechanical ventilator for fewer than 96 hours. Swedish
stated that these errors occurred because of misinterpretation of coding guidelines or human
error. As a result of these errors, Swedish received overpayments of $116,896.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

Swedish incorrectly billed Medicare for 95 of 105 selected outpatient claims, which resulted in
net overpayments of $173,814.

Incorrect Billing of Healthcare Common Procedure Coding System Codes

Medicare payments may not be made to any provider of services or other person without
information necessary to determine the amount due the provider (the Act, § 1833(e)). The
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2).

For 14 of 105 selected claims, Swedish billed Medicare with incorrect HCPCS codes. (Of the
14 claims, 8 claims had dates of service in CYs 2010, 2011, or 2012, and 6 claims had dates of

3
 Swedish may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
contractor before issuance of our report.


Medicare Compliance Review of Swedish Medical Center – First Hill (A-09-13-02048)                                  4
service in CY 2009.) Swedish stated that the billing system did not select the correct HCPCS
codes. As a result of these errors, Swedish received net overpayments of $128,513. Swedish
was overpaid $128,792 (13 claims) and underpaid $279 (1 claim).

Incorrect Billing of Number of Units

Medicare payments may not be made to any provider of services or other person without
information necessary to determine the amount due the provider (the Act, § 1833(e)). The
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). The Manual also states: “It is … of great importance that
hospitals billing for [drugs] make certain that the reported units of service of the reported
HCPCS code are consistent with the quantity of a drug … that was used in the care of the
patient” (chapter 17, § 90.2.A). If the provider is billing for a drug, according to the Manual,
“[w]here HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 mg, and 200 mg are
provided, units are shown as 4 …” (chapter 17, § 70).

For 81 of 105 selected claims, Swedish billed Medicare with an incorrect number of units for
injectable drugs administered. Swedish stated that the billing system had the incorrect unit
descriptions for the corresponding HCPCS codes selected. As a result of these errors, Swedish
received overpayments of $45,301.

                                       RECOMMENDATIONS

We recommend that Swedish:

    •   refund to the Medicare contractor $937,499, consisting of $763,685 in overpayments for
        the incorrectly billed inpatient claims and $173,814 in net overpayments for the
        incorrectly billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

   HOSPITAL COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Swedish stated that although it generally agreed with
our findings and recommendations related to instances in which documentation was insufficient
or coding errors occurred inadvertently, it disagreed with some of the narrative used in our
report. Swedish’s comments are included in their entirety as Appendix C.

HOSPITAL COMMENTS

Regarding our first recommendation, for the inpatient claims that we found should have been
billed as outpatient or outpatient with observation services, Swedish stated that it planned to
rebill Medicare Part B as soon as it is permitted to do so. Swedish also stated that, as a result, it
believes our draft report significantly overstated the overpayment amount associated with these




Medicare Compliance Review of Swedish Medical Center – First Hill (A-09-13-02048)                       5
claims. Regarding our second recommendation, Swedish described corrective actions that it had
undertaken to address the recommendation.

In addition to addressing our recommendations, Swedish requested clarifications for two issues
in our draft report. Specifically, Swedish stated that hospitals do not bill DRGs but report
diagnosis codes on inpatient claims to Medicare, which are then grouped by the Medicare
contractor to the appropriate DRG. Swedish also stated that seven claims we classified as
incorrect DRGs were included in the short stays category.

OFFICE OF INSPECTOR GENERAL RESPONSE

We acknowledge that Swedish may rebill Medicare for the incorrectly billed inpatient claims;
however, the rebilling issue is beyond the scope of our review. CMS issued the final regulations
on payment policies (78 Fed. Reg. 160 (Aug. 19, 2013)). Swedish should contact its Medicare
contractor for rebilling instructions.

We agree that hospitals provide data elements on claims, such as diagnosis codes, which are
grouped by the Medicare contractor into the appropriate DRG. However, hospitals indirectly bill
Medicare for the DRG because they provide the data elements that determine the
DRG. Regarding the seven claims that we classified as incorrect DRGs, these claims were
originally selected from the “Short Stays” risk area shown in Appendix B. Because we
organized the report’s findings by the types of billing errors we found, these claims were
correctly classified as incorrect DRGs.




Medicare Compliance Review of Swedish Medical Center – First Hill (A-09-13-02048)                6
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $2,340,888 in Medicare payments to Swedish for 257 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of
152 inpatient and 105 outpatient claims. Of the 257 claims, 247 claims had dates of service in
CYs 2010, 2011, or 2012, and 10 claims (in areas with a higher risk of billing errors, i.e.,
inpatient short stays and outpatient claims for injectable drugs) had dates of service in CY 2009.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements but did not use
medical review to determine whether the services were medically necessary.

We limited our review of Swedish’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from CMS’s National Claims History file, but
we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by Swedish for Medicare reimbursement.

We conducted our fieldwork at Swedish from December 2012 to September 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted Swedish’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file;

    •   used computer matching, data mining, and data analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 257 claims (152 inpatient and 105 outpatient claims) for detailed
        review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been canceled or adjusted;

    •   requested that Swedish conduct its own review of the selected claims to determine
        whether the services were billed correctly;



Medicare Compliance Review of Swedish Medical Center – First Hill (A-09-13-02048)                    7
    •   reviewed the itemized bills and medical record documentation provided by Swedish to
        support the selected claims;

    •   reviewed Swedish’s procedures for assigning HCPCS codes and submitting Medicare
        claims;

    •   discussed the incorrectly billed claims with Swedish personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Swedish officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Swedish Medical Center – First Hill (A-09-13-02048)              8
                       APPENDIX B: RESULTS OF REVIEW BY RISK AREA


                                                                                         Claims
                                                                       Value of           With
                                                        Selected       Selected          Billing        Value of Net
                   Risk Area                            Claims         Claims            Errors        Overpayments
Inpatient

Short Stays                                                144        $1,396,389            78             $675,711

Mechanical Ventilation                                        5          161,056             3               87,974

Claims Paid in Excess of Charges                              3          163,159             0                      0

  Inpatient Totals                                         152        $1,720,604            81             $763,685



Outpatient

Claims for Injectable Drugs                                100         $598,478             94             $174,093

Claims Billed With Modifier -59                               5           21,806             1                  (279)

  Outpatient Totals                                        105         $620,284             95             $173,814



  Inpatient and Outpatient Totals                          257       $2,340,888            176             $937,499

   Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
   outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
   billing errors we found at Swedish. Because we have organized the information differently, the information in the
   individual risk areas in this table does not match precisely this report’s findings.




   Medicare Compliance Review of Swedish Medical Center – First Hill (A-09-13-02048)                                    9
                                           APPENDIX C: HOSPITAL COMMENTS 





                                       7 47 Broadway
                                       Seattle. WA 98122-4307
                                       T 206.386.6000
                                                                                            $        SWEDISH
                                       swedish.org




                               Apri l 18, 2014

                               Ms. Lori A. Ahlstrand
                               Regional Inspector General for Audit Services
                               Office of Audit Services, Region IX
                               90 - 7'h Street, Suite 3-650
                               San Francisco, CA 94\03

                               Re: Swedish Medical Center- First Hill 's Response to Draft Report No. A-09-1 3-02048

     Swecf;sh Medical CentOt   Dear Ms . Ah lstrand:
     Ballard

     SWedosh Medical Cent«     We are writing on behalf of Swedish Medical Center-First Hill (" Swedish") to respond to
     Cherry Hill               the OIG' s Draft Audit Report No. A-09- 13-02048 entitled Medicare Compliance review
     Swed<sh Medical Cent«     of Swedish Medical Cenler- First Hill (" Draft Report"). The Draft Report identified a
     Edmonds
                               total a lleged overpayment of$937,499 based on a uni verse of257 claims that the
     Swedish Medical CentOt    OIG specifi call y selected as being at risk for billing errors, covering a four year period
     First Hill
                               (CY 2009-2012) in which Swedish was paid approximately $389 milli on. The bulk of
     Swedosh Medical Cent«     the noted overpayments involved inpatient short stays, with relati vely smaller
     Issaquah
                               overpayments noted related to DRG assignments on 3 cases and outpatient claims for
     Swecf;sh Medical Cent«    injectable drugs (either HCPCS or unit errors). We appreciate the opportunity to
     Mill Creek
                               comment on the Draft Report, to provide input on areas of requested clarification, and to
     SwecJ;sn Medical CentOt   respond to the OIG' s recommendations. As noted below, although Swedish generall y
     Redmond
                               agreed with the OIG' s findings and recommendations related to instances where
                               documentation was insufficient or coding errors occurred inadvertently, and took
                               immediately corrective actions re lated thereto, we disagree with the accuracy of some of
                               the narrative used in the Draft Report.

                               We would also like to communicate how much we appreciated the opportunity to work
                               collaboratively wi th your audit staff to review the claims at issue and to reach shared
                               conclusions as to instances where inadvertent errors may have been made. In addition,
                               we wish to emphasize that in all instances noted in the Draft Report, the patients at issue
                               received reasonable and medically necessary services that contributed to their well-being
                               and quality of life. Swedish takes very seriously its compliance with federal healthcare
                               programs, and strives to keep abreast of the ever-changing and increasingly complex
                               regulatory requirements associated with those programs. As a result, we viewed the
                               OIG' s audit in this matter as a learning experience through which we could further staff
                               education and improve upon Swedish ' s ongoing compliance program and efforts .




Medicare Compliance Review ofSwedish Medical Center - First Hill (.A-09-13-02048)                                             10
                Background

                Swedish Medical Center-First Hi ll ("Swedish") is a 624-bed, non-profit acute care hospital
                that has been serving the Seattle area for over 1. 00 years. Swedish donated over $35 million
                in direct charity care to its community in 2012, and has been consistently named by
                independent research organizations as one of the Seat!le area's best hospitals, with the best
                doctors, nurses, and care in a variety ofspecialty areas.

                Response to Recommendations and Request for Clarifications

                TI1e Draft Report contained two recommendation~, including that Swedish: (1) refund to the
                Medicare contractor $937,499 consisting of S763,685 in overpayments for the incorrectly
                billed inpatient claims and $173,8 I 4 for the incon·ectly billed outpatient claims; and (2)
                strengthen controls to ensure full compliance with Medicare requirements. Swedish responds
                to each of these recommendations below:

                With respect to the first recommendation, as noted in the Draft Repott, on page 4, at footnote
                3, there were actually $646,789 in payments made on 71 inpatient claims that should have
                been bil led as o u tpatient s tays, fo r which Swedish is eligib le tore-bill Medicare Part 8 for all
                services (other than those specifically requiring an outpatient order) and/or to appeal the
                denial. Accordingly, Swedish disputes that there were $763 ,685 in overpayments fo r
                incon·ectly billed inpatient claims (as noted in the Table provided on page 8 of the Draft
                Repott), and notes that this dollar amount is by far the largest p01tion ofthe overall alleged
                overpayment. Swedish will rebill the 71 claims at issue as soon as it is pennitted to do so.
                As a result, Swedish believes that the Draft Rep01t significantly overstates the total amount
                of overpayment identified in the course of this audit.

                With respect to the second recommendation, Swedish agrees that it can work continuously at
                strengthening intemal controls and its compliance activities related to Medicare
                requirement~, and we have undertaken a number of corrective actions iu this regard to date,
                including but not limited to: (1) working with our Medicare contractor to correct claims
                noted to be in error in the Draft Report; (2) educating physicians and case management staff
                on documentation requi rements for inpatient short stays (which, as you are likely aware, is an
                area that is often contested between Medicare contractors and hospitals and, as a result, is
                currently undergoing extensive revisions in CMS ' s rules and guidance); (3) updating systems
                and workflow redesign to avoid recurrence of noted errors in coding or unit errors; a11d ( 4)
                otherwise engaging Swedish leadership, case management, revenue cycle, and compliance
                staff in a review of intemal controls related to the Draft Report findings .




.Medicare Compliance Review ofSwedish .Medical Center- First Hill (A-09-13-02048)                                        11
                In addition to the foregoing, there is a technical error in the Draft Report for which Swedish
                requests COITection:

                   • 	 Hospitals do not bill DRGs to Medicare, but rather they repott diagnosis codes (ICD­
                       9 codes) on inpatient claims to Medicare, which are then grouped by the Medicare
                       Administrative Contractor to the appropriate DRG. Accordingly, Swedish believes
                       that the references on page 4 to Swedish having billed UlCOITect DRGs associated
                       with patients on a mechanical ventilator should instead refer to incorrect reporting of
                       the ICD-9 codes associated with the 3 cases at issue. Also, per page 4, there were an
                       additional 7 cases that nlVolved illcorrect DRG, but those were it1cluded by the OIG
                       in the short stay denial category.


                Conclusion

                'TI1ank yo u again for the oppOrtlmity to work with yo ur audit staffcollaborati vely durittg the
                course of this audit, and to conunent on 01<: Draft Repo11. Swedish respectfully requests that
                the OIG consider the above-noted comments and requests for clarification, prior to finalizing
                the Draft Report.

                We take great pride itt the quality and cost effectiveness ofthe care we provide to our
                patients, and we stri ve for continuous improvement in all areas ofour operations, including
                staff ed ucation, ensuri ng complete and accurate documentation, and maintaining a robust
                compliance program. We are confident that the corrective measures that Swedish has
                undertaken in response to this audit will fully address the identified errors. If you have any
                questions regarding this response or our ongoing compliance efforts, please .fe.el .free t<>
                contact me.

                Sincerely,

                !Elise Myers/

                Elise Myers
                System Director, Revenue Cycle
                Swedish Health Systems
                747 Broadway
                Seattle, W A 98122




.Medicare Compliance Review ofSwedish .Medical Center- First Hill (A-09-13-02048)                                   12
